              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
 International Materials Protection,
 Control and Accountability
 Nonproliferation Initiative




DOE/IG–0603                                 June 2003
                             Department of Energy
                                 Washington, DC 20585

                                 June 4, 2003



MEMORANDUM FOR THE SECRETARY

FROM:
                         diy5LAw
              Greg0 H. Friedman
              Inspector General

SUBJECT:               INFORMATION: Audit Report on "International Materials
                       Protection, Control and Accountability Nonproliferation
                       Initiative"


BACKGROUND

The Department of Energy is responsible for initiatives designed to reduce the threat
related to nuclear materials and weapons in the former Soviet Union (FSU). One of the
most prominent initiatives is the International Materials Protection, Control and
Accountability (IMPC&A) program, whose objective is to reduce the risk posed by
weapons and weapons-usable nuclear material at 95 sites in the FSU. The Department
commits about $250 million annually to this initiative.

Over the past several years, Congress expressed concern that a significant percentage of
IMPC&A funds was being expended at the Department's national laboratories rather than
in the FSU. Accordingly, appropriators established programmatic spending targets for
succeeding years, urged the Department to reduce overhead, and suggested the transfer of
contracting responsibilities from the national laboratories to Federal contracting
activities. Also, as recently as May 2003, the Senate Armed Services Committee noted
that a large portion of IMPC&A funds remained unspent and urged NNSA to improve its
management focus with respect to this program. Based on these concerns, as well as on a
previous Office of Inspector General review (Nuclear Material Protection, Control and
Accounting Program, DOWOIG-0452, September 1999), which found that IMPC&A
resources were not always used to fund projects on a prioritized basis, we performed an
audit to determine whether the Department had satisfied Congressional and programmatic
goals for its IMPC&A program.

RESULTS OF AUDIT

The Department may not be maximizing the performance of the IMPC&A program as a
result of several continuing problems that may diminish its overall effectiveness.
Notably, a significant portion of program funding was expended and accumulated in the




                               49    Printed with soy ink on recycled paper
                                             2


U.S. rather than being used directly to reduce or ameliorate proliferation risks in the FSU.
Specifically, the Department:

           Exceeded Congressional targets for funds expended at the national
           laboratories by about $8.5 million in FY 2001 and $5.2 million in FY 2002;

           Permitted uncommitted funds to increase from $65.8 million in FY 2001 to
           about $133 million by the end of FY 2002; and,

           Had not specifically identified or pursued opportunities to increase
           procurement efficiencies and reduce overhead charges.

These issues persisted because the Department had not established a formal, risk-based
approach to allocating program funding and had not developed specific, quantifiable
performance measures. Without the successful implementation of needed improvements,
ongoing nonproliferation initiatives could be jeopardized.

We recognize that the difficulties of working in the FSU may have affected the success of
the program and its ability to meet targets. However, additional action is necessary if the
Department is to be successful in responding to the increasing emphasis the President and
Congress have placed on nonproliferation efforts. We recommended that the Department
develop a risk-based approach to funding allocation and establish specific, quantifiable
performance measures--with milestones and spending targets--to guide execution of the
program. As we noted in our recent report on Management Challenges at the
Department of Energy (DOE/OIG-0580), the integration of budget and performance
measurement is essential if the Department is to satisfy the President's Management
Initiative in this area.

MANAGEMENT REACTION

The National Nuclear Security Administration ("SA) did not specifically concur or
non-concur with the report and recommendations. However, NNSA's Associate
Administrator for Management and Administration acknowledged our concern about the
importance of a risk-based approach for allocation of funding and the need for
developing performance measures for spending targets, uncommitted balances and
procurement efficiencies. Management stated that its Planning, Programming, Budgeting
and Evaluation process, which is continuing to evolve, will ultimately resolve the
concerns raised during the audit.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
INTERNATIONAL MATERIALS PROTECTION, CONTROL AND
ACCOUNTABILITY NONPROLIFERATION INITIATIVE

TABLE OF
CONTENTS



              Program Execution and Performance

              Details of Finding ........................................................................1

              Recommendations and Comments.............................................4


              Appendices

              1. Objective, Scope, and Methodology ......................................6

              2. Prior Reports ..........................................................................7

              3. Management Comments........................................................8
PROGRAM EXECUTION AND PERFORMANCE

Program Performance   In 2000, the Congress expressed general concern that a disproportionate
                      share of the funds appropriated for the International Materials
                      Protection, Control and Accountability Nonproliferation Initiative
                      (IMPC&A) program was expended for program direction and overhead
                      rather than for in-country former Soviet Union (FSU) nonproliferation
                      activities. Congress attempted to address these concerns by imposing
                      several targets and goals for program expenditures.

                      Despite the Congressional targets, the IMPC&A program had not met
                      programmatic goals for expending funds in the FSU. Further, we noted
                      that the program had accumulated large uncommitted balances and that
                      program officials had not taken sufficient action to reduce national
                      laboratory overhead charges and minimize procurement-related costs.
                      The Department's national laboratories play a lead role in managing the
                      IMPC&A program.

                                           Spending Targets and Results

                      During 2001, Congress directed that at least 57 percent of funds
                      appropriated for the IMPC&A program be spent in the FSU rather than
                      the U.S. For Fiscal Year (FY) 2002, Congress indicated that it expected
                      the percentage of funds spent in the FSU to increase in each year after
                      FY 2001, but did not establish a fixed goal. In addition to establishing
                      specific spending targets, Congress reiterated concerns regarding
                      spending patterns by noting in the FY 2003 Senate Appropriations
                      Committee Report that "…a substantial portion of the total appropriated
                      funding for fiscal year 2002 remains unspent and unobligated."

                      Even though FSU-targeted spending has increased in recent years, the
                      program was unable to satisfy goals in both FY's 2001 and 2002.
                      Despite specific Congressional direction, the Department continued to
                      exceed targets for expending funds at its National Laboratories as
                      opposed to the FSU. Specifically, 51 percent and 46 percent of the
                      Department's expenditures in FY's 2001 and 2002, respectively, were at
                      facilities in the U.S. As a result, the Department exceeded its targets
                      for those years by about $8.5 million and about $5.2 million,
                      respectively. Uncommitted balances also increased from $65.8 million
                      in FY 2001 to about $133 million by the end of FY 2002.

                                                Program Efficiencies

                      In addition to establishing spending targets, Congress also directed the
                      Department to reduce laboratory overhead and expressed concern over
                      contracting costs. In reports accompanying the FY 2002

Page 1                                                                     Details of Finding
                   Appropriations Bill, Congress directed the Department to apply the
                   lowest possible laboratory overhead rates to nonproliferation programs
                   and urged the Department to consider the use of Federal procurement
                   staff to further reduce program costs.

                   While certain laboratories made progress in reducing contracting costs,
                   we observed that indirect procurement charges varied widely among
                   sites and, in at least one case, were underreported. For example, while
                   Sandia National Laboratory managed to decrease procurement charges
                   from 28 percent to 2.5 percent, resulting in a savings of $10 million in
                   FY's 2001 and 2002, entities such as Argonne National Laboratory
                   continued to assess indirect charges of up to 24 percent. Even though
                   Lawrence Livermore National Laboratory reported that its indirect
                   charges had decreased to about 7.7 percent, we determined that it
                   achieved such appearance by improperly classifying indirect costs
                   associated with the FSU procurements as direct labor. Based on our
                   testing, we determined that Livermore charged a total of $2.6 million in
                   indirect costs (15.6 percent) but misclassified $1.3 million of those
                   costs as direct labor. Program officials informed us that they were not
                   aware of Sandia's overhead reduction initiatives and had not taken
                   specific action to influence laboratory overhead rates.

                   The Department had also not significantly increased the utilization of
                   Federal contracting capability. Specifically, the Department did not
                   perform a cost-benefit analysis to determine the extent to which the use
                   of Federal staff could reduce program costs. At the time of our review,
                   the program had only used Federal personnel to award one contract
                   valued at $3 million, out of a total of $134 million. Based on studies
                   performed by the Headquarters Office of Procurement, potential cost
                   savings from expanded use of the Federal capability could be
                   substantial as the direct cost alone (salaries and benefits) of laboratory
                   procurements are twice those of Federal actions.


Program and Cost   The Department was unable to satisfy Congressional goals for the
Controls           IMPC&A program. The audit disclosed that the Department had not
                   established a formal, risk-based approach to allocating program funding
                   and had not developed specific, quantifiable programmatic performance
                   measures.




Page 2                                                                   Details of Finding
                        Despite the complexities of the IMPC&A program and the importance
                        of nuclear security in reducing terrorist threats, the Office of
                        International Nuclear Materials Protection and Cooperation had not
                        developed and implemented a formal, risk-based approach to allocating
                        funding. While program officials told us that funding decisions were
                        based on factors such as the attractiveness and quantity of material and
                        degree of access, they also indicated that a formal weighting process to
                        rank projects was not in place. These officials believed that allocation
                        decisions were appropriate because they were based on meetings with
                        senior IMPC&A and Office of Defense Nonproliferation managers, but
                        conceded that they had not developed a prioritized list of projects or
                        funding candidates.

                        The Department also lacked specific, quantifiable performance
                        measures necessary to monitor contractor performance and overall
                        program progress. Performance targets adopted for FY 2002 did not
                        identify expectations concerning the composition of costs or the
                        expeditious use of resources to fund work in the FSU. In addition,
                        measures included in the FY 2003 Annual Performance Plan did not
                        include specific expectations regarding Congressional spending targets,
                        the reduction of uncommitted balances, or improving the efficiency of
                        the procurement process. Monitoring methods currently in place are
                        also not sufficiently detailed and did not provide information needed to
                        effectively manage the program. For example, while the program
                        required laboratories to submit monthly reports identifying components
                        of cost, specific spending goals had not been established, required
                        reports were insufficiently detailed to permit the identification of
                        incorrect or misclassified costs, and validation of reported costs was not
                        required.


Program Successes and   Although the IMPC&A program had not satisfied Congressional
Challenges              targets, management officials reported that progress had been made in
                        recent years. For example, they reported that the program had
                        increased the percentage of funds spent in the FSU from 44 percent in
                        FY 1999 to 54 percent in FY 2002. Program officials also told us that
                        the challenge of placing procurements in the FSU and unexpected
                        supplemental funding contributed to the accumulation of unobligated
                        balances. Federal officials indicated that the contractual process is
                        complicated by factors such as adverse weather conditions and the
                        reluctance on the part of the Russians to grant access to sensitive sites.
                        Because of these complexities and challenges, we believe measures to
                        ensure that high-risk issues are addressed in a timely manner are critical
                        to near-term success of the program.

Page 3                                                                        Details of Finding
Program Success       Without a risk-based approach, the Department cannot be assured that it
Impacts               is addressing the most pressing material or sites protection needs and
                      may continue to accumulate unspent or unobligated funds. Without
                      improvement, ongoing nonproliferation initiatives to contain access to
                      attractive and potentially dangerous materials could be jeopardized.

                      The President and the Secretary have noted the importance of working
                      with other governments to secure nuclear materials in the FSU. The
                      success of this program is critical to the security of the United States, as
                      efforts by rogue nations or terrorists to obtain nuclear materials and
                      deploy weapons of mass destruction continue to increase. While the
                      Department has made great strides in this area, additional action is
                      necessary if the program is to achieve its maximum potential given
                      available funding.


RECOMMENDATIONS       To improve administration and execution of the IMPC&A program, we
                      recommend that the Administrator, NNSA:

                           1.   Develop and implement a risk-based approach to funds
                                allocation; and,

                           2.   Develop performance targets related to meeting
                                Congressional spending targets, the reduction of
                                uncommitted balances, and improving the efficiency of the
                                procurement process.


MANAGEMENT REACTION   The response from the Associate Administrator for Management and
                      Administration, NNSA, is included as Appendix 3. Management did
                      not specifically concur or non-concur with the report conclusion and
                      recommendations.

                      NNSA acknowledged our concern about the importance of a risk-based
                      approach for allocation of funding and the need for developing
                      performance measures for spending targets, uncommitted balances and
                      procurement efficiencies. Management believes that the evolution of
                      its Planning, Programming, Budgeting and Evaluation process will
                      satisfy the concerns raised during this audit. This same process is being
                      used to ensure the development of performance measures for spending
                      targets, uncommitted balances and procurement efficiencies, and is
                      expected, over time, to fully address these concerns.




Page 4                                                   Recommendations and Comments
AUDITOR COMMENTS   Although NNSA did not specifically concur with the report conclusion
                   and recommendations, its response echoed our concern about the need
                   to ensure a risk-based approach in determining project funding
                   allocations and satisfies the intent of our recommendations.




Page 5                                                                      Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Department
              had satisfied Congressional and programmatic goals for its IMPC&A
              nonproliferation related program.


SCOPE         The audit was performed from April through November 2002 at NNSA
              Headquarters program offices in Washington, D.C.; Oak Ridge
              National Laboratory in Oak Ridge, TN; Lawrence Livermore National
              Laboratory in Livermore, CA; and Sandia National Laboratories in
              Albuquerque, NM. The audit universe included the IMPC&A program
              that received $170 million in funding during FY 2001 and $323 million
              in FY 2002. A judgmental sample of $12.8 million in costs reported by
              the three laboratories during FY 2001 and FY 2002 were selected for
              audit.


METHODOLOGY   To accomplish the audit objective we interviewed key Department and
              contractor personnel and reviewed:

                     •   Congressional Committee and Conference Reports issued
                         during FY's 2001 and 2002 on the expected performance of
                         the IMPC&A;

                     •   Departmental Congressional Budget Requests and Annual
                         Performance Plans for FY's 2002 and 2003;

                     •   Supporting documentation and justification for program
                         costs reported by national laboratories during FY's 2001 and
                         2002; and,

                     •   Prior audit reports of the IMPC&A program.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to the Department's management of the
              IMPC&A Nonproliferation program. Because our review was limited,
              it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We relied on computer-
              processed data to accomplish our audit objective. We performed
              limited test work of data reliability during our audit and determined that
              we could rely on the computer- processed data. An exit conference was
              waived.

Page 6                                         Objective, Scope, and Methodology
Appendix 2


                                      PRIOR REPORTS


     •   Nuclear Material Protection, Control, and Accounting Program (DOE/IG-0452, September
         1999). The audit found that the Department lacked assurance that IMPC&A resources were
         used to fund upgrades on a prioritized basis and that installed upgrades were functioning as
         intended.

     •   Nuclear Nonproliferation: DOE's Efforts to Assist Weapons Scientists in Russia's Nuclear
         Cities Face Challenges (GAO-01-429, May 2001). The audit found that the Department
         had spent the majority of the funding for the Nuclear Cities Initiative at the national
         laboratories, and that a large portion of these funds were spent on overhead.

     •   Nuclear Nonproliferation: Security of Russia's Nuclear Material Improving; Further
         Enhancements Needed (GAO-01-312, February 2001). The audit found that the IMPC&A
         program progress had been limited due to access restrictions imposed by the FSU.

     •   Nuclear Nonproliferation: Limited Progress in Improving Nuclear Material Security in
         Russia and the Newly Independent States (GAO/RCED/NSIAD-00-82, March 2000). The
         audit found that the Department had experienced delays in upgrading the security at nuclear
         facilities in the FSU due to access limitations imposed by the FSU. The audit also found
         that the Department had no cost or schedule estimates for the work being performed.

     •   Nuclear Nonproliferation: Concerns With DOE's Efforts to Reduce the Risks Posed by
         Russia's Unemployed Weapons Scientists (GAO/RCED-99-54, February 1999). The audit
         found that the IPP program had spent the majority of funds at the national laboratories, and
         had failed to achieve the program goal of providing long-term employment for former
         weapons scientists in the FSU.




Page 7                                                                                     Prior Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
                                                                           IG Report No.: DOE/IG-0603

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
